                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM


I   Case Number: A-04050037                                                                      Page 1 of 1



         We received an academic misconduct investigation report from the university1 that found the
         ~ u b j e c t a, ~graduate student supported in part with NSF funds,3 fabricated data presented in draft
         chapters of her thesis4 submitted to her faculty thesis advisor.' The University reprimanded the
         subject and took the following actions: placed a letter of reprimand in the subject's permanent
         academic file, noted the finding of academic misconduct on the subject's official University
         transcript; notified her future employer about the finding of academic misconduct; and notified NSF
         about the misconduct. The University determined that because the subject 1) accepted the
         responsibility for the fabrication, 2) worked for months to correct the fabricated data, and
         3) completed the thesis with limited changes, she was permitted to complete the Ph. D. We
         concurred with the University's investigation. We recommended NSF send a letter of reprimand.
         NSF's adjudicator sent the subject a letter of reprimand.

         This case is closed and no further action will be taken.




NSF OIG Form 2 (11/02)
The Office of Inspector General (OIG) has concluded the subject, a graduate student supported
in part with NSF funds, fabricated data presented in draft chapters of her thesis submitted to her
thesis advisor. As a result of its investigation, the subject's University found the subject
committed academic misconduct. The University reprimanded the subject and took the
following actions: placed a letter of reprimand in the subject's permanent academic file, noted
the finding of academic misconduct on the subject's official University transcript; notified her
future employer about the finding of academic misconduct; and notified NSF about the
misconduct. Because we believe the subject's actions are sufficient to warrant a finding of
misconduct, we recommend the National Science Foundation (NSF) send a letter of reprimand to
the subject informing her she has been found to have committed research misconduct.

                                     University's Investigation


fabrication of data against the subject,Pa graduate student. The subject allegedly fabricated mass
The university1 provided us with a Re ort (Tab 1) of its investigation into the allegation of

spectroscopy data for spectra of synthesized compounds in the second draft of chapter 5 of her
thesis and mass spectroscopy data for one compound in draft chapter 3 of her thesis (Tab 2)3 that
she submitted to her thesis advisor4 for comment. The Report explained the University's
investigation followed its "Academic Misconduct" policy (Tab 1, Attachments A and B).
According to the Report, the subject received support for the thesis work from two separate NSF
award^.^
The University assigned an investigator6 to review the matter. The University's investigator
examined the alleged fabrication of data in two draft chapters of the subject's thesis that involved
"several spectra of synthesized compounds."7 The investigator interviewed the thesis advisor,
who provided him with copies of the drafts of the relevant chapters of the subject's thesis and
two hand-written pages describing the alleged fabrication. (Tab 2, Sections 1,2,3,4, and 5)
The advisor stated that he "became concerned about possible spectral data fabrication during the
review of the second draft of Chapter 5 [of the subject's thesis]."' His concerns centered around
the fact that the "synthetic route did not provide the expected result^."^ The thesis advisor
confirmed that the subject had initially lied to him about the truthfulness of the data by indicating
that she could not locate the Analytical Facility report which contained the spectral data (Tab 1,




                                                                  , was assigned to be the investigator and
Attachment 3, page 2, and emails from the subject to the thesis advisor, dated 8 January and 10
January 2004, Tab 2, Section 7). When the thesis advisor then directly confronted the subject      '



about this matter, the subject provided the thesis advisor with a handwritten admission that she
was ashamed of herself and her behavior (Tab 2, Section 7). The thesis advisor subsequently
checked the department's Analytical Facility where the subject performed analyses for her thesis
and learned the samples in question were never analyzed at the Facility.

The investigator interviewed the subject. However, no interview notes or transcripts were made
of the interview (Tab 3). During the interview, the subject again admitted to fabricating the mass
spectral data. The Report concludes that the combination of the subject's admission of
fabrication of these data and of the lack of records at the Analytical Facility at the University that
the samples in question were analyzed, proved the subject fabricated the data in question.

The Report states that the thesis advisor thought by excluding the fabricated data from the final
thesis draft the subject had enough valid data remaining in the thesis to receive a Ph.D.
According to the Report, the fraudulent data were "identified and expunged"10and none of the
fraudulent data were published or used in any inappropriate manner involving NSF. As a result,
the investigator recommended that the subject be permitted to complete her Ph.D.

Because the subject did not contest the findings, the University accepted the Report's
conclusions and imposed the following sanctions: 1) the subject received a letter of reprimand,
2) the subject's record at the University "noted this academic misconduct," 3) NSF was notified
of the finding, and 4) the subject's new employer was notified of the decision of academic
misconduct.

                                        OIG 's Investigation

We wrote to the subject requesting her perspective on the allegation of fabrication (Tab 4). The
subject explained (Tab 5) that she had been under pressure and had made the serious mistake of
reporting some "mass spectroscopic data of the intermediates along a synthetic pathway in the
experimental sections of a rough draft of [her] thesis that [she] had not yet measure[d]."'l She
explained that her advisor had been unable to secure funds for her and, because all of the
teaching assistant positions had been filled, she was told she needed to finish earlier than
originally planned. As a result, she felt pressured to complete her work quickly. She also noted
that a tense relationship developed during this time between her and her thesis advisor. She
admitted making a mistake by not originally taking responsibility for her errors, but noted that
she admitted her mistake after being confronted by her advisor. She did not contest the findings
of the graduate school and its sanctions because she "wanted to begin to make up for the mistake
that was made."I2 She pointed out that no false data remained in the thesis submitted to the
committee and, subsequently, to the graduate school. Finally, she confirmed that she completed
her thesis on 5 August 2004.



10
11

12   Ibid
                                        OIG 's assessment

NSF's Research Misconduct Regulation states that a finding of misconduct requires:

       (1) There be a significant departure from accepted practices of the relevant
       research community; and (2) The research misconduct be committed
       intentionally, or knowingly, or recklessly; and (3) the allegation be proven by a
       preponderance of the evidence.I3


                                             THEACT
The subject admitted entering false data into the draft of her thesis. The University's Report
determined that the lack of appropriate records at the Analytical Facility showed that the mass
spectral analyses were never completed. We conclude the preponderance of the evidence
indicates the subject fabricated mass spectral data values. Fabricating of data strikes at the heart
of scientific integrity. The mass spectral analyses, although not critical to the final science
presented in her thesis, was a standard test used to confirm the compounds the subject was
creating as a part of her research. As such, the subject significantly departed from the accepted
standards when she entered the fabricated mass spectral values into her draft thesis.I4



We determined that the preponderance of the evidence shows that the subject acted knowingly
when she fabricated these data. It would have been impossible for the subject not to know that
she was entering false data values into her thesis, especially considering that the evidence
indicates that the tests, which would have generated those data, were never performed.

Since the preponderance of evidence supports the conclusion that the subject acted knowingly
when she fabricated these data we conclude the subject committed Research Misconduct.

                                        Subject's Response


We wrote to the subject on 15 June 2005 providing a copy of the draft investigation report
(Tab 6). The subject's 27 July 2005 response (Tab 7) reiterates her earlier response, accepting
full responsibility for her actions.


                                 OIG 's Recommended Disposition

In deciding what actions are appropriate when making a finding of research misconduct, NSF
must consider several factors. These factors include how serious the misconduct was; the degree
of culpable intent; whether it was an isolated event or part of a pattern; its impact on the research
record; and other relevant         circumstance^.'^
As we noted above, we concluded the subject knowingly fabricated these data, which is a
significant departure from the accepted practice in the subject's community. We believe the
subject's action, fabricating data, requires that NSF make a finding of Research Misconduct.
There is no apparent pattern of misconduct by the subject and there appears to be no impact on
the research record since the subject corrected all the errors prior to the completion of her thesis.
Mitigating factors include 1) the University's acknowledgment that the subject cooperated fully
with its investigator after she admitted she had lied to her advisor, 2) the subject's clear remorse
in her responses to the University's investigation and to OIG's request for an explanation, 3) the
subject's concerted effort to redo all the laboratory work appropriately without compensation,
and 4) th-esubject's cooperation with NSF OIG7sinvestigation.

We believe the University's actions also serve to protect the government. Accordingly, we
recommend the NSF send the subject a letter of reprimand informing her that she has committed
Research Misconduct.16




l5   45 CFR $ 689.3(b).
l6   This is a Group I Action, $689.3(a)(l)(i).
                                      NATIONALSCIENCE FOUNDATION
                                          4201 WILSON BOLlLEVARD
                                         ARLINGTON, VIRGINIA 22230




       OFFICE OF THE
      DEPUTY DIRECTOR




                          --     1 JRN RF",CI'E1PT RE-                         JAN 2 3 2006




          Re: Notice of Miscon duct in Science Determination



           On or about November 19, 2003, while working as a research assistant at h-t
                             "university") supported in part by NSF funds, you submitted a draft of
ru-                             thesis advisor. As documented in the attached Investigative Repon
    prepared by NSF's Office of Inspector General ("OIG"), your draft contained fabricated data.


                               Pro-
           Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
  o r plagiarism in proposing or performing research funded by NSF . .." 45 CFR $ 689.1(a). NSF
  defines "fabrication" as "making up data or results and recording or reporting them." 45 CFR 9
  689.1 (a)(l). A finding of research misconduct requires that:
          (1) There be a significant departure from accepted practices of the relevant research
              community; and
          (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
          (3) The allegation be proven by a preponderance of evidence.

   45 CFR   5 689.2(c).
           Your draA contained fabricated spectra for synthetic compounds. You admitted that you
   had not yet measured such spectra, but submitted the fabricated data to meet a deadline
   established by your thesis advisor. Your conduct unquestionably constitutes fabrication. I
   therefore conclude that your actions meet the definition of "research misconduct" set forth in
   NSF's regulations.
                                                                                             Page 2
        Pursuant to NSF regulations, the Foundation must also determine whether to make a
finding of misconduct based on a preponderance of the evidence. 45 CFR        689.2(c). After
reviewing the Investigative Report and the University Committee Report, NSF .has determined
that, based on a preponderance of the evidence, your fabrication was knowing and constituted a
significant departure from accepted practices of the relevant research community. I am,
therefore, issuing a finding of research misconduct against you.


          NSF's regulations establish three categories of actions (Group I, 11, and HI) that can be
taken in response to a finding of misconduct. 45 CFR $689.3(a). Group I actions include issuing
a letter of reprimand; conditioning awards on prior approval of particular activities fiom NSF;
                      ..
requiring that an institution   or individual obtain special prior approval of particular activities
fm
d'ic certi
                            that an institutional representative certify as to the accuracy of reports
                          pliance with particular requirements. 45 CFR 9689.3(a)(l). Group I1
 actions include award suspension or restrictions on designated activities or expenditures;
requiring special reviews of requests for funding; and requiring correction to the research record.
 45 CFR §689.3(a)(2). Group LII actions include suspension or termination of awards;
prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
 suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).
      T               **
       In determining the severity of the sanction to impose for research misconduct, I have
considered the seriousness of the misconduct; our determination that it was kndislg; t h a
~&,minatio#'that it wa* an isolated event and not part of a pattern; your willingness to accept
responsibility for your actions; and the contrition that you demonstrated during the course of the
investigative process. 1 have also considered other relevant circumstances. 45 CFR 5 689.3 (b).


         Although the fabrication of data is a serious matter, there are several mitigating factors to
 be considered. First, you took responsibility for your actions in this matter, and cooperated fully
 with the university's investigation and the follow-up conducted by the O I G . Second, the OIG
 expressly found that your actions were an isolated event and not part of a pattern. Third, there
 was no impact on the research record or the public welfare because the fabricated data were
 expunged from the thesis, and were,not published. Fourth, you apologized to NSF, and indicated
 that ,you would never again engage in such academic dishonesty. Finally, I have taken into
 account the measures the University has already implemented. The sanctions imposed by the
 University are substantive and, in rijy view, are commensurate with the misconduct in which you
 engaged. Thus, I am not imposing any additional sanctions on you.



         Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
 of this decision, in writing, to the Director of the Foundation. 45 CFR §689.10(a). Any appeal
 should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
                                                                                  Page 3
Arlington, Virginia 22230. For your information we are attaching a copy of the applicable
regulations. If you have any questions about the foregoing, please call         Assistant
General Counsel, at (703) 292-8060.



                                               Sincerely,
                                                  .C   .



                                               Kathie L. Olsen
                                               Deputy Director

Enclosures
- Investigative Report
- 45 C.F.R. 689
